           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   ADMINISTRATIVE COSTS CLAIMED
    BY THE CALIFORNIA DISABILITY
      DETERMINATION SERVICES


    July 2007    A-09-06-16129




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      July 31, 2007                                                           Refer To:

To:        Peter D. Spencer
           Regional Commissioner
            San Francisco

From:      Inspector General

Subject:   Administrative Costs Claimed by the California Disability Determination Services
           (A-09-06-16129)


           OBJECTIVE

           The objectives of our audit of the California Disability Determination Services (CA-DDS)
           were to (1) evaluate internal controls over the accounting and reporting of
           administrative costs, (2) determine whether costs claimed were allowable and funds
           were properly drawn, and (3) assess limited areas of the general security controls
           environment.

           BACKGROUND
           The Disability Insurance program, established under Title II of the Social Security Act
           (Act), provides benefits to wage earners and their families in the event the wage earner
           becomes disabled. The Supplemental Security Income program, established under
           Title XVI of the Act, provides benefits to financially needy individuals who are aged,
           blind, or disabled.

           The Social Security Administration (SSA) is responsible for implementing policies
           for the development of disability claims under the Disability Insurance and
           Supplemental Security Income programs. Disability determinations under both
           Disability Insurance and Supplemental Security Income are performed by disability
           determination services (DDS) in each State or other responsible jurisdiction in
                                                  1
           accordance with Federal regulations. In carrying out its obligation, each DDS is
           responsible for determining claimants’ disabilities and ensuring adequate evidence is
           available to support its determinations. To assist in making proper disability
           determinations, each DDS is authorized to purchase medical examinations, x-rays, and


           1
               20 Code of Federal Regulations (C.F.R) §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 – Peter D. Spencer

laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.
SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of
the Treasury’s Automated Standard Application for Payment system to pay for program
expenditures. Funds drawn down must comply with Federal regulations 2 and
intergovernmental agreements entered into by the Department of the Treasury and
States under the Cash Management Improvement Act of 1990. 3 An advance or
reimbursement for costs under the program must comply with Office of Management
and Budget Circular A-87, Cost Principles for State, Local, and Indian Tribal
Governments. At the end of each quarter of the FY, each DDS submits a Form
SSA-4513, State Agency Report of Obligations for SSA Disability Programs, to account
for program disbursements and unliquidated obligations.

CA-DDS is a component of the California Department of Social Services (DSS),
Disability and Adult Programs Division. For Fiscal Years (FY) 2004 and 2005, CA-DDS
had about 1,500 employees and an authorized budget of $387 million for administrative
costs. As of September 30, 2005, DSS reported total disbursements of $375.7 million
and unliquidated obligations of $11.3 million.

RESULTS OF REVIEW

We found that CA-DDS had effective internal controls over the accounting and reporting
of administrative costs and its general security control environment was effective. In
addition, the costs claimed by CA-DDS were allowable and funds were properly drawn
except for $1,658,596 of charges to SSA programs. This occurred because DSS
claimed reimbursement for unallowable indirect, personnel, and nonpersonnel costs.
Specifically, DSS

•    improperly allocated $1,544,050 of State-wide indirect costs to SSA programs,

•    paid medical consultants $46,656 in unallowable costs,

•    charged $38,847 from components that did not benefit SSA, and

•    paid $29,043 in rental costs in excess of lease agreements.




2
    31 C.F.R. § 205.1 et seq.
3
    Public Law 101-453, 104 Stat. 1058, in part amending 31 U.S.C. §§ 3335, 6501 and 6503.
Page 3 – Peter D. Spencer

EXCESS STATE-WIDE INDIRECT COSTS ALLOCATED TO SSA PROGRAMS

DSS improperly charged State-wide indirect costs to SSA’s programs. According to
DSS personnel, this occurred because adjustments to the proposed State-wide costs
were not made after the actual costs were approved. As a result, SSA reimbursed DSS
$1,544,050 of unallowable costs from July 2001 through June 2005 (see Table 1).
Beginning in July 2005, DSS did properly adjust the proposed State-wide costs.

                                                                                      Unallowable State-
                                Proposed        Approved                                 wide Costs
           Period           State-wide Costs State-wide Costs        Difference       Allocated to SSA
    July 2001 - June 2002      $12,564,495        $12,241,427            $323,068              $124,285
    July 2002 - June 2003      $11,698,346        $13,282,647        ($1,584,301)             ($610,932)
    July 2003 - June 2004      $13,260,489        $10,266,340          $2,994,149             $1,239,084
    July 2004 - June 2005      $15,712,098        $13,701,267          $2,010,831              $791,613
    July 2005 - June 2006      $14,907,579        $14,907,579                  $0                     $0
            Total              $68,143,007        $64,399,260          $3,743,747             $1,544,050


State-wide indirect costs are expenditures for services, including accounting, auditing,
budgeting, and payroll from the California Department of Finance (DOF), Office of the
State Controller, and State Personnel board, that benefit all departments in the State.
A State-wide indirect cost pool is used to allocate an equitable share of State-wide
costs to all programs benefiting from these services. At the beginning of each State
FY, DOF issues the proposed State-wide indirect costs to be used until the State-wide
indirect costs are approved.

Beginning July 1998, DOF stopped notifying all State departments, in writing, of any
revisions to the proposed State-wide indirect costs. Instead, DOF required that State
departments review its website for any revisions to the proposed State-wide indirect
costs. Because DSS employees did not review the DOF website, they were not aware
of the subsequent adjustments to the proposed State-wide indirect costs. This finding
was reported in our May 2003 audit of FYs 1999 and 2000. DSS refunded the excess
costs and agreed with our recommendations to periodically review the DOF website for
any revisions to the proposed State-wide indirect costs. 4 As a result of our current
audit, DSS advised us that it refunded the unallowable indirect costs.

UNALLOWABLE COSTS CLAIMED FOR MEDICAL CONSULTANTS

CA-DDS claimed unallowable costs paid to medical consultants. This occurred
because of control weaknesses that allowed medical consultants to receive additional
pay to which they were not entitled. As a result, we estimate that SSA reimbursed DSS
$46,656 of unallowable costs for October 2004 through September 2005 (see
Appendix C).
4
  Audit of Administrative Costs Claimed by the California Disability Determination Services
(A-09-02-22022).
Page 4 – Peter D. Spencer

Medical consultants are employed by CA-DDS and receive a salary for their review of
the medical aspects of disability claims. CA-DDS provides medical consultants an
additional $27 for each case closed over an established weekly minimum threshold
(90 cases for a full-time medical consultant). To receive the additional payment, the
medical consultants must complete and certify a Case Closure Bonus Certification
form. The medical consultants then submit the certification and a log of their cases
completed and closed to a supervisor for review and approval.

We found that the supervisory review and approval of the Case Closure Bonus
Certification did not always detect (1) duplicate cases claimed, (2) instances in which
medical consultants claimed extra cases without meeting their minimum thresholds, and
(3) instances in which the number of extra cases claimed on the certification forms
exceeded the number supported by the logs.

Because of the control weaknesses in the certification and approval process, we
reviewed all payments made to medical consultants for extra cases closed for a
1-month period (July 2005). During that month, 15 of the 168 medical consultants
received $52,056 in bonus payments. Of these, CA-DDS overpaid $4,698 to
11 medical consultants. In addition, 2 medical consultants were underpaid $810 for
30 cases. As a result, we estimate CA-DDS overpaid the 11 medical consultants
$56,376 and underpaid the 2 medical consultants $9,720 for October 2004 through
September 2005 (see Appendix C).

IMPROPER CHARGES FROM COMPONENTS THAT DID NOT BENEFIT SSA

DSS improperly claimed nonpersonnel costs (for example, occupancy, equipment,
communication, travel, and supplies) from components that did not benefit SSA’s
programs. This occurred because DSS employees erroneously coded these
expenditures as CA-DDS costs. For our audit period, DSS charged $69,981 in
nonpersonnel costs from these components, of which we verified that $38,847 was
erroneously coded and charged to SSA’s programs.

Applicable Federal guidance states that “a cost is allocable to a particular cost objective
if the goods or services involved are chargeable or assignable to such cost objective in
accordance with relative benefits received.” 5 SSA’s procedures authorize the Agency
to provide States with funding for all expenditures, direct or indirect, necessary to make
disability determinations. Generally, any expenditures incurred for SSA’s disability
determination process are deemed essential and may be charged to the Agency. 6

During our audit, we identified charges from the Children and Family Services Division,
which is responsible for adoption services and overseeing the Child Welfare Service
program. Also, we found charges from the Adult Programs and State Disability
Programs Branches in the Disability and Adult Programs Division. The Adult Programs
5
    Office of Management and Budget Circular A-87, Attachment A, C.3.a.
6
    SSA, Program Operations Manual System (POMS), DI 39506.001.B.1.
Page 5 – Peter D. Spencer

Branch oversees State programs for the aged, blind, or disabled, and the State
Disability Programs Branch develops, evaluates, and adjudicates Medicaid claims.
Generally, these components’ activities did not benefit SSA’s programs.

OVERPAYMENT OF LEASE FOR CA-DDS BRANCHES

We found DSS had overpaid rental costs for three CA-DDS branches. This occurred
because DSS employees did not ensure the rental payments made agreed with the
amounts in the lease agreements. As a result, DSS claimed $29,043 in unallowable
rental costs for the Los Angeles East, Los Angeles South, and Sacramento branches.

The Los Angeles East and South branches are co-located in a privately owned building.
These branches entered into one lease agreement with the lease amount divided
equally and charged to their respective accounts. The total lease amount for these
two branches during our review period was $2,112,826. We found that DSS paid
$2,134,883. As a result, DSS overpaid $22,057 in rental cost for the two branches.

The Sacramento branch is located in a privately owned building. Under the terms of its
lease agreement, the total lease amount was $1,588,892. We found that DSS paid
$1,595,878 and therefore overpaid $6,986 in rental costs for the Sacramento branch.

CONCLUSION AND RECOMMENDATIONS

Our review disclosed that CA-DDS incorrectly charged costs to SSA programs. This
occurred because DSS claimed reimbursement for unallowable indirect, personnel, and
nonpersonnel costs. As a result, SSA reimbursed the CA-DDS for $1,658,596 of
unallowable costs.

We recommend that SSA:

1.   Instruct DSS to refund $1,544,050 of unallowable statewide indirect costs.

2.   Instruct DSS to ensure it adjusts the proposed Statewide costs after the actual
     costs are approved.

3.   Instruct DSS to refund $46,656 of unallowable personnel costs paid to medical
     consultants or verify whether medical consultants’ bonus payments were proper.

4.   Instruct CA-DDS to improve its controls to prevent and detect improper payments
     made to medical consultants for cases closed in excess of their weekly minimum
     thresholds.

5.   Instruct DSS to refund $38,847 of unallowable nonpersonnel costs charged from
     components that did not benefit SSA’s programs.
Page 6 – Peter D. Spencer

6.   Instruct DSS to issue reminders to all employees on the proper method of charging
     nonpersonnel costs to SSA’s programs.

7.   Instruct DSS to refund $29,043 of unallowable rental costs for the Los Angeles
     East, Los Angeles South, and Sacramento branches or submit documentation to
     support the payment of rent in excess of the lease agreements.

8.   Instruct DSS to improve its controls to ensure that rental costs claimed do not
     exceed the amounts in the lease agreements.

AGENCY COMMENTS
SSA agreed with all our recommendations. DSS generally agreed with our findings and
recommendations. However, it disagreed in part with the unallowable rental costs and
Recommendations 7 and 8. Specifically, DSS stated it has the documentation we
recommended it provide to support the payment of rent in excess of the lease
agreements.

See Appendices D and E for the full text of SSA’s and DSS' comments.

OIG RESPONSE
We are pleased that SSA agreed with all our recommendations. Regarding the
unallowable rental costs, the San Francisco Regional Office should ensure the DSS
documentation adequately supports the payment of rent in excess of the lease
agreements.




                                                Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology, Results and Estimates
APPENDIX D – Social Security Administration Comments
APPENDIX E – California Disability Determination Services Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
Act      Social Security Act
CA-DDS   California Disability Determination Services
C.F.R.   Code of Federal Regulations
DDS      Disability Determination Services
DOF      California Department of Finance
DSS      California Department of Social Services
FY       Fiscal Year
POMS     Program Operations Manual System
SSA      Social Security Administration
U.S.C.   United States Code
                                                                        Appendix B

Scope and Methodology
SCOPE
We reviewed the administrative costs reported to the Social Security Administration
(SSA) by the California Disability Determination Services (CA-DDS) on the State
Agency Report of Obligations for SSA Disability Programs (Form SSA-4513) for Federal
Fiscal Years (FY) 2004 and 2005. As of September 30, 2005, CA-DDS reported the
following disbursements and unliquidated obligations on its Forms SSA-4513.

                     Category                           FY 2004             FY 2005
    Disbursements
      Personnel Costs                                  $106,091,158         $111,114,952
      Medical Costs                                      46,834,955           41,587,770
      Indirect Costs                                     19,375,268           19,077,606
      All Other Nonpersonnel Costs                       15,881,044           15,764,820
      Total Disbursements                               188,182,425          187,545,148
    Unliquidated Obligations                                578,424           10,696,746
    Total Obligations                                  $188,760,849         $198,241,894

To accomplish our objective, we:

•   Reviewed applicable Federal laws and regulations, pertinent sections of SSA’s
    Program Operations Manual System, and other criteria relevant to administrative
    costs claimed by CA-DDS and drawdowns of SSA program funds.

•   Reviewed California Department of Social Services’ (DSS) policies and procedures
    related to personnel, medical, indirect, and all other nonpersonnel costs.

•   Interviewed employees from the SSA regional office, DSS, CA-DDS.

•   Reviewed the Single Audit of the State of California for the FY ended June 30, 2002.

•   Reviewed the corrective actions DSS took on our May 2003 Audit of Administrative
    Costs Claimed by the California Disability Determination Services (A-09-02-22022).

•   Obtained an understanding of the internal control structure to plan the audit and to
    determine the nature, timing, and extent of the tests to be performed.

•   Reconciled the amount of Federal funds drawn for support of program operations to
    the allowable expenditures.



                                             B-1
•   Examined the administrative costs incurred and claimed by DSS for personnel,
    medical, indirect, and all other nonpersonnel costs during FYs 2004 and 2005.

•   Reconciled the accounting records to the administrative costs reported by DSS on the
    Forms SSA-4513 for FYs 2004 and 2005.

•   Selected a random sample of personnel, medical, and all other nonpersonnel costs.

•   Verified indirect costs for FYs 2004 and 2005 based on the approved indirect cost
    allocation plan.

•   Conducted a limited examination of CA-DDS’ general security controls environment. 1

We determined the electronic data used in our audit were sufficiently reliable to achieve
our audit objectives. We assessed the reliability of the electronic data by reconciling
them with the costs claimed on the Form SSA-4513. We also conducted detailed audit
testing on selected data elements from the electronic files.

We performed audit work at DSS and CA-DDS in Sacramento, California, and at the
San Francisco Regional Office in Richmond, California. We also performed audit work
at two CA-DDS branch offices in Sacramento and Oakland, California. We conducted
fieldwork between August 2006 and April 2007. We conducted our audit in accordance
with generally accepted government auditing standards.

SAMPLING METHODOLOGY

Our sampling methodology included the three general areas of costs as reported on
Form SSA-4513: (1) personnel, (2) medical, and (3) all other nonpersonnel costs.
We obtained computerized data from DSS and CA-DDS for FYs 2004 and 2005 for
statistical sampling.

Personnel Costs

We reviewed a random sample of 50 personnel and 50 medical consultant transactions
for 1 month in FY 2005. We tested payroll records to ensure CA-DDS accurately paid
its employees and adequately supported these payments.




1
  Our review of general controls was limited to an assessment of the physical access security controls
and the CA-DDS security plan. Our Fiscal Year 2007 Financial Statement Audit also includes a review of
the CA-DDS general computer controls. Any findings related to this review will be reported in a separate
management letter to SSA.


                                                  B-2
Medical Costs

We reviewed 100 medical cost items (50 items from each FY) using a stratified random
sample. We distributed the sample items between medical evidence of records and
consultative examinations based on the proportional distribution of the total medical
costs for each year.

All Other Nonpersonnel Costs

We reviewed 100 all other nonpersonnel costs items (50 items from each FY)
using a stratified random sample. Before selecting our sample, we excluded
$1,746,576 from our population that we reviewed separately. We excluded these items
because those costs could not be clearly identified with specific invoices that can be
associated with the CA-DDS or other benefiting component. We then sorted the
remaining transactions into the following categories: (1) Occupancy (less
Occupancy-Rent), (2) Contracted Costs, (3) Electronic Data Processing Maintenance,
(4) New Electronic Data Processing Equipment, (5) Equipment, (6) Communications,
(7) Applicant Travel, (8) DDS Travel, (9) Supplies, and (10) Miscellaneous. We then
distributed the 50 sample items between these categories based on the proportional
distribution of all other nonpersonnel costs for each year. In addition, we reviewed all
transactions for rental costs for each year.




                                          B-3
                                                                                  Appendix C

Sampling Methodology, Results and Estimates
MEDICAL CONSULTANTS
We obtained a list of individuals employed by the California Disability Determination
Service (CA-DDS). From this list, we identified a population of 168 medical consultants,
of which 15 received additional pay in the randomly selected month of July 2005. The
15 medical consultants received the additional pay for cases closed over their
established weekly minimum threshold.

For each of the 15 medical consultants, we obtained payroll records, personnel forms,
and other supporting documentation to determine whether the amounts paid were
accurate and valid. We found that 11 medical consultants were overpaid $4,698
because of (1) duplicate cases claimed, (2) instances in which medical consultants
claimed extra cases but did not meet their minimum thresholds, and (3) instances in
which the number of extra cases medical consultants claimed on their certification
forms exceeded the number supported by their logs. In addition, two medical
consultants were underpaid $810 because extra cases completed were not included for
                            1
payment on the claim forms.

We estimate that the CA-DDS overpaid the 11 medical consultants $56,376 and
underpaid the 2 medical consultants $9,720 for October 2004 through September 2005.
The following tables provide the details of our audit results and estimates.

                        Table 1 - Annual Estimate for Overpayments
                                               Sample Results               Annual Estimates
     Type of Error        Number of       Number of     Overpaid        Number of      Overpaid
                           Medical          Cases       amount            Cases        Amount
                                     2
                         Consultants
Duplicates                           10           110         $2,970          1,320          $35,640
Threshold Not Met                     2            44         $1,188            528          $14,256
Not Documented                        2            20           $540            240           $6,480
Total                                11           174         $4,698          2,088          $56,376
                        Table 2 - Annual Estimate of Underpayments
                                               Sample Results               Annual Estimates
    Type of Error       Number of         Number of     Overpaid        Number of     Underpaid
                         Medical            Cases        amount           Cases        Amount
                       Consultants
     Unclaimed               2               30            $810             360           $9,720



1
    One medical consultant had an overpayment and an underpayment.
2
 These errors are not mutually exclusive. Three medical consultants had multiple errors: one medical
consultant had duplicates and instances in which the extra cases claimed were not documented, and two
medical consultants had duplicates and instances in which the minimum threshold was not met.
                                   Appendix D

Social Security Administration Comments
                                SOCIAL SECURITY
MEMORANDUM
Date:      July 13, 2007                                           Refer To:   S2D9G4


To:        Inspector General

From:      Regional Commissioner
           San Francisco

Subject:   Audit of Administrative Costs Claimed by the California Disability Determination
           Services (A-09-06-16129)--REPLY

           Thank you for the opportunity to review the draft report of your audit of the California
           Disability Determination Services. Per your request, we are providing an attachment
           with specific written comments for each of the eight recommendations contained in the
           draft report.

           We greatly appreciate the work performed by the OIG staff in this region. They display
           consistent dedication to improving the fiscal efficiency of our DDSs.

           If you have any questions regarding our comments, please call me. If your staff has
           any questions, they may call Gus Villalobos in the Center for Disability at (510) 970-
           8297.




                                                     Peter D. Spencer

           Attachment




                                               D-1
                                                                            Attachment


    Regional Office Comments on the California DDS Draft Audit Report


Recommendation 1: Instruct DSS to refund $1,544,050 of unallowable statewide
indirect costs.

Comment: We agree with this recommendation.

Recommendation 2: Instruct DSS to ensure it adjusts the proposed statewide
costs after the actual costs are approved.

Comment: We agree with this recommendation.

Recommendation 3: Instruct DSS to refund $46,656 of unallowable personnel
costs paid to medical consultants’ or verify whether medical consultants’ bonus
payments were proper.

Comment: We agree with the auditor finding. We would like to see the State
response before deciding on a reasonable resolution to the finding.

Recommendation 4: Instruct the California DSS to improve its controls to prevent
and detect improper payments made to medical consultants for cases closed in
excess of their weekly minimum thresholds.

Comment: We agree with this recommendation:

Recommendation 5: Instruct DSS to refund $38,847 of unallowable non-
personnel costs charged from components that did not benefit SSA’s programs.

Comment: We agree with this recommendation.

Recommendation 6: Instruct DSS to issue reminders to all employees on the
proper method of charging non-personnel costs to SSA’s programs.

Comment: We agree with this recommendation.

Recommendation 7: Instruct DSS to refund $29,043 of unallowable rental costs
for the Los Angeles East, Los Angeles South, and Sacramento branches or
submit documentation to support the payment of rent in excess of the lease
agreements.

Comment: We agree with this recommendation.




                                   D-2
                                                                               2


Recommendation 8: Instruct DSS to improve its controls to ensure that rental
costs claimed do not exceed the amounts in the lease agreements.

Comment: We agree with this recommendation.




                                   D-3
                                      Appendix E

California Disability Determination Services
Comments
E-1
E-2
E-3
E-4
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Joseph Robleto, Audit Manager, (510) 970-1737

Acknowledgments

In addition to those named above:

   Wilfred P.K. Wong, Auditor-in-Charge

   Nicole Kato Sullivan, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-06-16129.
                            DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
